No, 20-5523

IN THE
SUPREME COURT OF THE LNZTEL STATES

BRIAN JuRY — PETITIONER

v5,
DAVLA GRAY, Warder ~ KES Pon LENT

ON PETIZION FOR AWRIT OF CERTEORART To
THE UMITED STATES COURT OF A PAREAIS FOR ThE SIXTH CIRCUIT

CERTLFEICATION Of PETZIZONER

Z, Briar Sury, c@ripy that the grounds to thin this
Rehearing pe Yhan are limited fo pafervening Crteu pr B hance of
Bibs fantial or controling ef fect or fa other grounds not
preuiausly presented as plained sn rhe accompany ing
pelitisa fer Reheariag » Lalso cern fy Seb phos Peh fan
for Rehearing “5 presented in good fa 44 and tot for thay .

LT declar€ under srenalhy of PONY koh Yhe fore gon 4 Ss
prune and correcr,

Paecuted on /2-25-2026

ran Sur x AE5Y -GEF
Fro-Se€
